No:

IN THE
SUPREME COURT OF THE UNITED STATES
ie

ie

*

*

*

*

MAURICE JACKSON
Petitioner
V.

THOMAS McGINLEY
Respondent

PROOF OF SERVICE
I, Maurice Jackson, do swear or declare that on this date, May 30, 2021, as required by Supreme
Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PA UPERIS and PETITION FOR A WRIT OF CERTIORARI on the party to the above proceeding
and that party’s counsel, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them with first-class postage prepaid.
The names and addresses of those served are as follows:
Thomas McGinley
1 Kelley Drive
Coal Township, PA, 17866

Ronald Eisenberg
Office of Attorney General of Pennsylvania
1600 Arch Street Suite #300
Philadelphia, PA, 19103

I declare under penalty of perjury that the following is true and correct. Executed on May,

MAURICE JAjCKSON JH2936
1 Kelley Drive
Coal Township, PA, 17866
Prose Petitioner

